NO.
IN THE
SUPREME COURT OF THE UNITED STATES

MAJOR HUSON III, PETITIONER,
VS.
SCOTT NUNN, WARDEN, RESPONDENT,
PROOF OF SERVICE
I MAJOR HUDSON III, DO SWEAR OR DECLARE THAT ON THIS DATE,
3
/ Q3 /2021, AS REQUIRED BY SUPREME COURT RULE 29.1 HAVE
SERVED THE ENCLOSED MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS
AND PETITION FOR A WRIT OF CERTIORARI ON EACH PARTY TO THE ABOVE
PROCEEDING OR THAT PARTY’S COUNSEL, BY HAND DELIVERING TO PRISON
OFFICIAL AN ENVELOPE CONTAINING THE ABOVE DOCUMENTS TO BE
DEPOSITED IN THE UNITED STATES MAIL PROPERLY ADDRESSED TO EACH OF
THEM WITH FIRST CLASS POSTAGE PREPAID. THE NAMES AND ADDRESSES OF

THOSE SERVED ARE AS FOLLOWS: MIKE HUNTER, ATTORNEY GENERAL OF
OKLAHOMA, 313 N.E. 21st STREET, OKLAHOMA CITY, OKLAHOMA 73105-4907

I DECLARE UNDER PENALTY OF PERJURY THAT THE FOREGOING IS TRUE AND
CORRECT. EXECUTED ON
3 -Q.S

IGNATURE

RECEIVED
MAR 3 1 2021
SUPREEMEFCQlfRTLl^K

